        USEFULNESS OF THE 

SMALL BUSINESS INNOVATION RESEARCH 

        TECH-NET DATABASE 


              Report Number: 11-02 

          Date Issued: November 12,2010 





                  Prepared by the 

            Office of Inspector General 

       U. S. Small Business Administration 

             u.s. Small Business Administration
             Office of Inspector General             Memorandum
     To:     Sean Greene                                                Date:   November 12, 2010
             Associate Administrator for Investment
             lsi Original Signed
  From:      Debra S. Ritt
             Assistant Inspector General for Auditing

Subject: 	   Usefulness of the Small Business Innovation Research Tech-Net Database,
             Report No. 11-02

             This report summarizes the results of our limited-scope review of the usefulness of
             the Small Business Administration's (SBA) Small Business Innovation Research
             (SBIR) Tech-Net database. The database, which is publicly available, contains
             data on SBIR grants and contracts. SBA plans to expand Tech-Net to include a
             government-use section that would capture the data on the commercialization of
             SBIR results needed for better evaluation of the SBIR program. A prior review by
             the Government Accountability Office (GAO) in 2006 and reports from various
             Offices of Inspectors General (OIG) have identified data gaps and weaknesses in
             Tech-Net that have prevented agencies participating in the SBIR program from
             using it to identify duplicative awards.

             The purpose of the review was to assess SBA's progress in completing
             enhancements and expanding the Tech-Net database to allow agencies to:
             (1) identify duplicate awards and or other potential fraud; and (2) better evaluate
             the performance of the SBIR program.

             To determine whether previously identified weaknesses in Tech-Net had been
             addressed, we reviewed prior GAO and OIG reports and testimony, and feedback
             from two SBIR working groups that were established to recommend database
             improvements. We also interviewed personnel from SBA's Office of Technology
             and the National Science Foundation's (NSF) Office of Inspector General (OIG).
             We examined Tech-Net data fields and discussed with SBA changes that had been
             made or were planned for the system.

             To assess SBA's progress in developing the government-use portion of Tech-Net,
             we interviewed officials in SBA's SBIR program office and obtained relevant
             documents. We also reviewed the Small Business Innovation Development Act of
                                                                                                               2


1982 and amendments to the Act, Federal Register publications, and SBA's Policy
Directive for the SBIR program to identify database requirements, guidance
provided participating agencies, and SBA program responsibilities. We conducted
our review between March 2010 and August 2010, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND
Congress established the SBIR program in 1982 to increase the use of small
businesses to meet Federal research and development needs, to foster and
encourage participation by minority and disadvantaged persons in technological
innovation, and to commercialize results from the research. Participating­
agencies - all Federal departments or agencies with extramural research and
development budgets greater than $100 million - are required to set aside no less
than 2.5 percent of their overall extramural research and development budget for
SBIR awards.

Congress designated SBA as the SBIR program administrator and tasked it with
developing and maintaining a publically available database of searchable up-to­
date information on each SBIR award to assure qualified and interested small
businesses have the opportunity to participate in the SBIR program. This public­
use database, referred to as "Tech-Net," is currently in operation and contains
58 data elements that are to be reported for each SBIR award, ofwhich18 are
mandatory. These elements are listed in Appendix I. The data collected includes:
(1) award-specific information, such as the date and amount of the award, an
abstract of the project funded by the award, and a unique tracking number for each
award; (2) award recipient information, such as gender and socio-economic status;
and (3) information about the type of firms that received the awards, such as the
number of employees and geographic location. Subsequently, the Small Business
Reauthorization Act of2000 (Act) mandated that SBA develop, by mid-2001, a
more comprehensive database available only to the Federal government or other
authorized persons for SBIR program evaluation purposes.

Prior reviews by GAO and agency OIGs have identified data gaps and other
weaknesses with Tech-Net that have made assessment of the SBIR program a
challenge and have impeded use of the data to prevent funding of identical
research projects. 1 In 2006, GAO reported that (1) agencies did not consistently
enter the data elements within Tech-Net, resulting in incomplete sections of the

lGAO-07-38, Small Business Innovation Research - Agencies Need to Strengthen Efforts to Improve the Completeness,
 Consistency ofAward Data, October 2006; Department of Energy Office of Inspector General, OAS-M-08-09,
Management Controls over Monitoring and Closeout ofSmall Business Innovation Research Phase II Grants,
 July 2008; National Aeronautics and Space Administration Office of Inspector General, Management Alert: Concerns
 Relating to NASA Small Business Innovation Research Contracts, April 2004.
                                                                                     3


database, (2) SBA limited corrections on format errors to only key data elements,
thereby limiting the quality of comprehensive program evaluations to the quality
of the data within the fields, and (3) SBA was 5 years behind schedule in
implementing the restricted government-use database.

Since that report, SBA has revised the way that agencies submit SBIR award
information. Previously, agencies were expected to provide the data to SBA in a
preselected computer language format. SBA, in tum, converted the data which
often led to incomplete data entry or transfer errors that went uncorrected.
Currently, participating agencies electronically transmit SBIR award data directly
to Tech-Net.

In a 2009 Congressional hearing, GAO and the NSF OIG reported that the
growing number of duplicate awards for the same work and duplicative
deliverables was attributed to SBA's failure to provide the mandated database
allowing SBIR award information to be shared between awarding agencies. To
address concerns with the quality and usefulness of SBIR data and to strengthen
the completeness, accuracy, and consistency of its data collection efforts, SBA
established a working group of SBIR participating agencies. It also became a
participant in a fraud working group, lead by the National Aeronautics and Space
Administration (NASA) and NSF Offices of Inspector General. The fraud
working group, which was established to identify ways to prevent fraud in the
SBIR program, has recommended improvements to Tech-Net to guard against
fraud, waste, and abuse.

RESULTS IN BRIEF

SBA had made limited progress in enhancing Tech-Net since the 2006 GAO audit.
Participating agencies were still experiencing difficulty in searching the database
for duplicative awards and other indicators of fraud because information in the
Tech-Net database was incomplete, and the search capabilities of the system were
limited. The database did not capture all mandatory data as one field was missing
from the database and two others were not designated as mandatory. Further, all
awards were not captured in Tech-Net to guide funding decisions because many
participating agencies did not enter SBIR data timely. Additionally, SBA had not
developed the government-use component of Tech-Net to capture information on
the commercialization of SBIR research and development projects. However,
SBA recently allocated $1.25 million and has begun the acquisition process to
enhance and expand the Tech-Net database. While these enhancements could
fulfill the statutory requirement for a government-use database and significantly
improve the search features of Tech-Net, SBA will still need to take steps to
ensure the completeness of award data.
                                                                                        4


To address the issues noted in our review, we recommended that the Associate
Administrator for the Office of Investment: add the missing data field to Tech-Net;
designate two other data fields as mandatory and inform participating agencies of
these designations; add a database control that prevents participating agencies
from submitting their award data when any of the mandatory data fields are left
blank; and require that award information be submitted at the time of award.

Management concurred with two recommendations and is taking actions to
address two other recommendations. Management also commented that it has
been undertaking a comprehensive upgrade of the Tech-Net database, which will
address a number of concerns raised in the audit report. Therefore, we consider
management's comments to be fully responsive to all four recommendations.

RESULTS

Tech-Net Has Not Been an Effective Tool for Monitoring and Preventing
Duplicative Funding

Despite database changes made by SBA since the 2006 GAO report, agencies
participating in the SBIR program still find the Tech-Net database oflimited
usefulness as a tool for identifying duplicative funding of research projects.
Specifically, Tech-Net lacks complete and up-to-date information and is difficult
to search because of inconsistencies in data formats, the lack of a single identifier
for companies receiving awards, and limited query and data linking capabilities.

Completeness ofthe Database

Participating agencies reported that Tech-Net did not contain complete
information for all SBIR awards. SBA's Small Business Innovation Research
Program Policy Directive, issued on September 24,2002, requires that the Tech-Net
database include 18 mandatory data fields for each SBIR award. Despite this
requirement, the database was established without one of the mandatory fields,
"Minority Code," which is needed to identify and report on the number of awards
made to minority finns. Additionally, participating agencies did not always enter
data in two other mandatory fields, "Principal Investigator" and "Agency
Solicitation Topic Code," which are key fields used for identifying duplicate
awards. This occurred because while these two fields are required by the policy
directive, they are not designated as mandatory in the Tech-Net database structure
and no controls exist in Tech-Net to prevent agency submissions when mandatory
fields have not been completed.

In addition to the mandatory fields, SBA has identified 40 other items of
information that agencies should report on. These items, which are identified in
Appendix I, include information that would be useful in identifying duplicative
                                                                                          5


awards, such as the contact official for the recipient company. However, because
this information is not mandatory, it is not reported by all agencies. The working
groups believe that this information would assist in their efforts to identify
research proposals that duplicate existing awards, and therefore, should be
designated as required.

Also, according to SBA's Office of Technology, all recent awards are not in Tech­
Net because agencies record award information at different times. Although
SBA's policy directive for the program requires participating agencies to submit
award information to SBA at the time the award is funded, some agencies do not
report their awards until the time of their annual data submissions to SBA. This
has hampered the ability of participating agencies to use the database to determine
whether similar research proposals have been funded when making award
decisions. Without the ability to identify recent awards, agencies may be
awarding SBIR grants or contracts to companies that received funding for the
same research.

Limited Search/Sort Capability

To facilitate analysis of the program and to identify similarities in research
proposals, Tech-Net users must be able to search and sort the data captured in the
database. According to one of the SBIR working groups, the database is difficult
to search because awardees are not uniquely identified, technical abstracts lack
searchable plain language, grants cannot be distinguished from contracts, the
system lacks advanced sorting capabilities, and search results cannot be tallied.
More specifically:

       • 	 There is no single identifier for companies receiving awards. For example,
           a company may be entered as "ABC, Inc.," "ABC Inc.," "ABC," or any
           other iteration, which would make these companies appear as separate
           entities.

       • 	 Technical abstracts lack searchable plain language and are difficult for a
           layperson to understand. According to one of the working groups and NSF
           OIG testimon/, abstract information placed in Tech-Net varies by agency
           in content, length, and technical complexity. As a result, reviews for
           duplicate proposals are difficult and labor intensive as it is difficult to
           identify similarities in research proposals.

       • 	 SBIR contracts cannot be distinguished from grant awards. Because each
           funding vehicle has a different set of regulations and requirement, users
           find it difficult to identify potential deviations from program requirements

2   NSF OIG Testimony, Waste, Fraud, and Abuse in the SBIR Program, August 6, 2009.
                                                                                    6


      and performance measurements and are unable to accurately report program
      performance by funding vehicle.

   • 	 Tech-Net lacks advance sorting and linking capabilities needed for
       analyses. For example, the number of searchable fields is limited, multi­
       level searches cannot be performed, and custom reports of user-selected
       search fields cannot be created. As a result, agencies are unable to use the
       database to obtain specific information or generate detailed reports meeting
       their analytical and reporting needs. Further, identifiers linking related
       entities are limited to basic demographics, such as address and phone
       number. As a result, relationships between related companies (i.e. affiliates
       or subsidiaries), principle investors, or research topics are difficult to
       identify.

   • 	 Summary totals for search results are not available. As a result, agencies
       cannot readily identify the total number and value of awards made to
       individual companies to assess program performance.

Government-Use Component of Tech-Net Needed for Program Evaluation
Has Not Been Developed

The Small Business Reauthorization Act of 2000 required that SBA, within
6 months of the Act's enactment, develop a database to collect and maintain
information from SBIR applicants and awardees necessary to assess the SBIR
program. The Act also required that SBA maintain two databases, one for the
public and another for authorized government users. According to the Act, the
government-use database was to be used solely for SBIR program evaluation and
was to capture information on:
   • 	 sales revenue earned by awardees from new products or services resulting
       from SBIR funded research;
   • 	 any additional non-SBIR investments that awardees received to further
       their research and development projects;
   • 	 narrative information on second phase awards voluntarily submitted by
       awardees;
   • 	 applicants that did not receive SBIR awards; and
   • 	 any other information determined useful, relevant and appropriate for SBIR
       program evaluation.
Despite the mandate that SBA develop the database within 6 months of the Act's
enactment, a 2006 GAO report stated, among other things, that SBA had not
implemented the mandated government-use database. We determined that as of
August 2010, SBA still had not developed the mandated government-use database
                                                                                   7


to capture information on the commercialization of SBIR-funded research and
development projects. According to SBA officials, a lack of funding had
prevented it from expanding Tech-Net to meet the government-use requirements.
However, as of July 2010, SBA allocated $1.25 million to enhance and expand the
Tech-Net database, including the implementation of the required government-use
component.

Planned Tech-Net Database Enhancements and Expansion

According to SBA's Office of Technology, it is actively working with the SBIR
working groups and SBA's Office of the Chief Information Officer to revamp the
Tech-Net database and awarded a contract to develop a new Tech-Net database on
September 21, 2010. Planned enhancements to the system include:

   • 	 creating a unique "business key" field for each submitting entity;

   • 	 increasing the number of searchable data fields;

   • 	 increasing the number of sort capabilities including allowing multi-level
       searches; and

   • 	 adding the ability to subtotal search results.

SBA also plans to use a portion of the $1.25 million to develop the government­
use component of the Tech-Net database. This expansion would provide
information on the commercialization of SBIR-funded research and development
projects and allow SBA and other authorized users a vehicle to perform a proper
evaluation of the SBIR program's performance. While the expansion and
enhancements will fulfill the statutory requirement of the government-use
database and significantly improve the search features of Tech-Net, SBA will still
need to take steps to ensure the completeness of award data.

RECOMMENDATIONS

We recommended that the Associate Administrator for Investment:

   1. 	 Add the mandatory "Minority Code" data field to Tech-Net.

   2. 	 Designate the "Principal Investigator" and "Agency Solicitation Topic
        Code" as required data fields and inform participating agencies of these
        designations.

   3. 	 Add a database control that prevents participating agencies from submitting
        their award data when any of the mandatory data fields are left blank.
                                                                                  8


   4. 	 Require that participating agencies submit award information to SBA and
        other participating agencies at the time of award, as required by SBIR
        Policy Directive, Section 7(a)(iii).

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On September 22, 2010, we provided a draft of this report to SBA's Office of
Investment for comments. On November 5,2010, the Associate Administrator for
Investment provided formal comments, which are contained in their entirety in
Appendix II. Management agreed with recommendations 1,2, and neither agreed
nor disagreed with recommendations 3 and 4. The Agency's comments and our
evaluation of them are summarized below.

Recommendation 1

Management Comments

Management agreed with the recommendation and stated that several years ago
SBA changed the terminology from "Minority Code" to "Economically
Disadvantaged." However, management noted that the two terms are not identical
in meaning and agreed to change the term back to "Minority Code" and to make it
a mandatory field.

DIG Response

We believe management's comments are responsive to the recommendation.

Recommendation 2

Management Comments

Management agreed with the recommendation and stated that it will add "Principal
Investigator" and "Agency Solicitation Topic Code" as required fields. It will also
advise participating agencies of these designations.

DIG Response

We believe management's comments are responsive to the recommendation.
                                                                                       9


Recommendation 3

Management Comments

Management stated that as part of the current Tech-Net upgrade, it was working
with its contractor to implement controls allowing agencies to submit award data
only when all mandatory data fields were completed.

DIG Response

We believe management's comments are responsive to the recommendation.

Recommendation 4

Management Comments

Management stated that it was taking steps to have agencies submit award
information to SBA at the time of award. These steps included adding an edit
function to Tech-Net allowing agencies the capability to revise award information
after submission. This capability would entice agencies to submit their award data
as soon as possible after award by alleviating their concerns that correcting records
would be difficult and time consuming.

DIG Response

We believe management's comments were responsive to the recommendation.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken
or planned for each recommendation and the target date( s) for completion.

We appreciate the courtesies and cooperation of the Small Business
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 205_[FOIAeX2]or Riccardo R. Buglisi, Director, Business
Development Programs Group at (202) 205- [FOIAex.2]
                                                                                               10



     APPENDIX I. Tech-Net Data Fields for Public Database


Mandatory Fields                                Non-Mandatory Fields
1.   Program Identification                     1.   Street2
2.   Company                                    2.   Zip4

3. - 6. Address: Streetl, City, State and Zip   3. - 5. Contact First, Last, & Middle Init
7. Minority Code                                6.   Contact Title
                                                7.   Contact Phone
8.   Women
                                                8.   Contact Email Address
9.   Agency Code
                                                9.   Employees
10. Phase
                                                10. Branch
11. Award Year                                  11. PI Middle Init
12. Award Amount                                12. PI Title
13. -14. PI First/ PI Last                      13. PI Phone
15. Topic Code                                  14. PI Email Address
16. Tracking Number                             15. RIType
17. TIN/EIN                                     16. RIName 

18. Title                                       17.-22. RI Address: Streetl, Street2, City, State, 

                                                        Zip, & Zip4
                                                23. - 25. RI Official First, Last, & Initial
                                                26. RI Official Phone
                                                27. Contract/Grant Number
                                                28. Solicitation Number
                                                29. Solicitation Year
                                                30. Proj ect Initiator
                                                31. Technology Used (YIN)
                                                32. Time to establish license agreement (months)
                                                33. STIR Proceeds Distribution to SBC (%)
                                                34. STIR Proceeds Distribution to RI (%)
                                                35. Abstract
                                                36. Abstract Sequence Number
                                                37. Results
                                                38. Comments
                                                39. Industry Share Amount
                                                40. Cost Share Tracking
                                                                                                  11



APPENDIX II. Management Comments


                        U.S. SMALL BUSINESS ADMINISTRATION 

                                WASHINGTON, DC 20416 





 November 5, 2010

 Ms. Debra Ritt
 Assistant Inspector General
 Auditing Division
 Office of Inspector General
 U. S. Small Business Administration
 409 3rd Street, S. W., 5th Floor
 Washington, D. C. 20416
 Dear Ms. Ritt:
 This letter is in response to the Office ofInspector General's (OIG) request for comment on
 its recent draft report entitled, "Usefulness of the Small Business Innovation Research Tech­
 Net Database". Outside of the framework of the OIG audit, SBA has been undertaking a
 comprehensive upgrade of the Tech-Net database. This effort aims to improve data collection
 and management program wide and will address a number of the concerns raised in the report.

 After review of the draft report and conversations with the OIG staff conducting the audit,
 SBA has the following comment:

 Recommendations:

 1) Add the mandatory 'Minority Code" data field to Tech-Net.
 SBA concurs with the recommendation. Several years ago, SBA changed the terminology on
 the form from "Minority Code" to "Economically Disadvantaged." However, we note that the
 two terms are not identical in meaning and will make plans to change the term back to
 "minority code" and make it a mandatory field.

 2) Designate the "Principal Investigator" and "Agency Solicitation Topic Code" as
 required data fields and inform participating agencies of these designations.
 SBA concurs with the recommendation and will take steps to inform participating agencies to
 add "Principal Investigator" and "Agency Solicitation Topic Code as required fields. SBA
 anticipates incorporating these mandatory fields as part of the current Tech-Net upgrade,
 which should take place over the next six to nine months.

 3) Add a database control that prevents participating agencies from SUbmitting their
 award data when any of the mandatory data fields are left blank.
 SBA is working with its contractor to put in controls so that agencies will only be able to
 submit award data when all mandatory data fields are completed. This addition is part of the
 current Tech-Net upgrade. While SBA's goal is to have all agencies complete all mandatory
 fields, we are concerned that a system that prevents all data from being compiled due to a few
 fields being incomplete and SBA anticipates changes being made over the next six to nine
 months.
                                                                                                 12


4) Require that participating agencies submit award information to SBA and otber
participating agencies at the time of award, as required by SBIR Policy Directive,
Section 7(a)(iii).
SBA is taking steps to have agencies submit award infOlmation to SBA at the time of award.
SBA is working with its contractor (Tech-Net upgrade) to make it viable for all agencies to
submit their award information as soon as possible after award. Part of the issue has been the
concern by agencies that if there are changes in their award information, that it would be
difficult and time consuming to go back and correct individual records. As part of the Tech­
Net upgrade, mechanisms will be put in place that will allow the agencies to edit awardees
information post submission. SBA is working toward getting this portion of the upgrade
completed in the next six to nine months. ,It must be noted, that of the 01G recommendations,
this one is the most challenging because of the different infrastructures and resources
available to the varying SBIR agencies. So, while SBA will strive to make this a short term
reality, we must factor in legacy and other issues.

 Thank you for the opportunity to provide comment on the draft report. Our office looks
 forward to working with you. If you have any questions please contact Edsel Brown of my
'staff at (202) 205-7343.

                                                    Sincerely

                                                    [FOIA ex. 6]

                                                    Se<IDrJ. Greene
                                                    Associate Administrator
                                                    Investment Division
